<html>
<title> - H.R. 660: THE SMALL BUSINESS HEALTH FAIRNESS ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                     H.R. 660: THE SMALL BUSINESS HEALTH 
                               FAIRNESS ACT
             ___________________________________________________
             ___________________________________________________


                                  HEARING

                                 BEFORE THE

                 SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS

                                   OF THE

                         COMMITTEE ON EDUCATION AND
                               THE WORKFORCE

                          HOUSE OF REPRESENTATIVES

                         ONE HUNDRED EIGHTH CONGRESS

                                FIRST SESSION
                                  ________

                HEARING HELD IN WASHINGTON, DC, MARCH 13, 2003
                                  ________

                              Serial No. 108-10
                                  ________

               Printed for the use of the Committee on Education
                              and the Workforce




     87-719 pdf
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                    COMMITTEE ON EDUCATION AND THE WORKFORCE
                        JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin					GEORGE MILLER, California
CASS BALLENGER, North Carolina				DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan					MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California			DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware				ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas					LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania				RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia				CAROLYN McCARTHY, New York
FRED UPTON, Michigan					JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan					RON KIND, Wisconsin
JIM DeMINT, South Carolina					DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia					DAVID WU, Oregon
JUDY BIGGERT, Illinois					RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania				SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio					BETTY McCOLLUM, Minnesota
RIC KELLER, Florida					DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska					ED CASE, Hawaii
JOE WILSON, South Carolina					RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma					DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada					CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota					TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas					TIMOTHY H. BISHOP, New York
	MARILYN N. MUSGRAVE, Colorado
	MARSHA BLACKBURN, Tennessee
	PHIL GINGREY, Georgia
	MAS BURNS, Georgia
	
             Paula Nowakowski, Chief of Staff
       John Lawrence, Minority Staff Director


        SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS
    SAM JOHNSON, Texas, Chairman

JIM DeMINT, South Carolina					ROBERT E. ANDREWS, New Jersey
JOHN A. BOEHNER, Ohio					DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina				CAROLYN McCARTHY, New York
HOWARD P. "BUCK" McKEON, California			DALE E. KILDEE, Michigan
TODD RUSSELL PLATTS, Pennsylvania				JOHN F. TIERNEY, Massachusetts
PATRICK J. TIBERI, Ohio					DAVID WU, Oregon
JOE WILSON, South Carolina					RUSH D. HOLT, New Jersey
TOM COLE, Oklahoma					BETTY McCOLLUM, Minnesota
JOHN KLINE, Minnesota					ED CASE, Hawaii
JOHN R. CARTER, Texas					RAU?L GRIJALVA, Arizona
MARILYN N. MUSGRAVE, Colorado
MARSHA BLACKBURN, Tennessee











Table of Contents


OPENING STATEMENT OF CHAIRMAN SAM JOHNSON, SUBCOMMITTEE ON 
EMPLOYER-EMPLOYEE RELATIONS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE	2

OPENING STATEMENT OF RANKING MEMBER ROBERT ANDREWS, 
SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE	3

STATEMENT OF THE HONORABLE ANN L. COMBS, ASSISTANT SECRETARY, 
EMPLOYEE BENEFITS SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
LABOR, WASHINGTON, D.C.	5

STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, BURLAGE ASSOCIATES, PA, 
MILLERSVILLE, MD, TESTIFYING ON BEHALF OF THE NATIONAL FEDERATION OF 
INDEPENDENT BUSINESS	23

STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, BURLAGE ASSOCIATES, PA, 
MILLERSVILLE, MD, TESTIFYING ON BEHALF OF THE NATIONAL FEDERATION OF 
INDEPENDENT BUSINESS	25

STATEMENT OF GREG SCANDLEN, DIRECTOR, CENTER FOR CONSUMER DRIVEN 
HEALTH CARE, THE GALEN INSTITUTE, ALEXANDRIA, VA	28

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN SAM JOHNSON, 
SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE	41

APPENDIX B - WRITTEN STATEMENT OF THE HONORABLE ANN L. COMBS, 
ASSISTANT SECRETARY, EMPLOYEE BENEFITS SECURITY ADMINISTRATION, U.S. 
DEPARTMENT OF LABOR, WASHINGTON, D.C.	47

APPENDIX C - WRITTEN STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, 
BURLAGE ASSOCIATES, PA, MILLERSVILLE, MD, TESTIFYING ON BEHALF OF THE 
NATIONAL FEDERATION OF INDEPENDENT BUSINESS	59
APPENDIX D - WRITTEN STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, 
BURLAGE ASSOCIATES, PA, MILLERSVILLE, MD, TESTIFYING ON BEHALF OF THE 
NATIONAL FEDERATION OF INDEPENDENT BUSINESS	65

APPENDIX E - WRITTEN STATEMENT OF GREG SCANDLEN, DIRECTOR, CENTER 
FOR CONSUMER DRIVEN HEALTH CARE, THE GALEN INSTITUTE, ALEXANDRIA, 
VA	81

APPENDIX F - SUBMITTED FOR THE RECORD, STATEMENT OF THE HEARTH, 
PATIO & BARBECUE ASSOCIATION, ARLINGTON, VA	87

APPENDIX G - SUBMITTED FOR THE RECORD, STATEMENT OF DONALD L. 
WESTERFIELD, Ph.D., PROFESSOR, WEBSTER UNIVERSITY, SENIOR FELLOW, 
NATIONAL CENTER FOR POLICY ANALYSIS	93

APPENDIX H - SUBMITTED FOR THE RECORD, STATEMENT OF THE AMERICAN 
FARM BUREAU FEDERATION	105

APPENDIX I - SUBMITTED FOR THE RECORD, STATEMENT OF THE ASSOCIATION 
HEALTHCARE COALITION, WASHINGTON, D.C.	109

APPENDIX J - SUBMITTED FOR THE RECORD, STATEMENT OF COUNCIL OF 
SMALLER ENTERPRISES, CLEVELAND, OH	115

APPENDIX K - SUBMITTED FOR THE RECORD, STATEMENT OF THE SMALL 
BUSINESS ASSOCIATION OF MICHIGAN, LANSING, MI	121

APPENDIX L - SUBMITTED FOR THE RECORD, STATEMENT OF THE DETROIT 
REGIONAL CHAMBER	135

APPENDIX M - SUBMITTED FOR THE RECORD, LETTER TO RANKING MEMBER 
ROBERT ANDREWS, FROM DONALD A. YOUNG, M.D., PRESIDENT, HEALTH 
INSURANCE ASSOCIATION OF AMERICA (HIAA), MARCH 13, 2003	141

APPENDIX N - SUBMITTED FOR THE RECORD, STATEMENT OF NATIONAL 
ASSOCIATION OF INSURANCE COMMISSIONERS	147
APPENDIX O - SUBMITTED FOR THE RECORD, STATEMENT OF RONALD F. 
POLLACK, EXECUTIVE DIRECTOR, FAMILIES USA, WASHINGTON, D.C.	157

APPENDIX P - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN JOHN A. 
BOEHNER AND RANKING MEMBER GEORGE MILLER, FROM MIKE PICKENS, 
NATIONAL ASSOCIATION OF INSURANCE COMMISSIONERS (NAIC) PRESIDENT, 
KANSAS CITY, MO	173

APPENDIX Q - SUBMITTED FOR THE RECORD, STATEMENT OF NATIONAL SMALL 
BUSINESS UNITED	179

APPENDIX R - SUBMITTED FOR THE RECORD, LETTER TO SPEAKER OF THE 
HOUSE, J. DENNIS HASTERT AND SENATE MAJORITY LEADER, BILL FRIST, M.D., 
FROM MENTAL HEALTH LIASON GROUP, C/O PETER NEWBOULD, AMERICAN 
PSYCHOLOGICAL ASSOCIATION PRACTICE ORGANIZATION, WASHINGTON, D.C.
	191

APPENDIX S - SUBMITTED FOR THE RECORD, NEWS RELEASE, "AHPs WILL 
INCREASE HEALTHCARE COSTS FOR CONSUMERS," 
BLUECROSS BLUESHIELD ASSOCIATION, CHICAGO, IL	197

Table of Indexes	206









HEARING ON H.R. 660:  THE SMALL BUSINESS

HEALTH FAIRNESS ACT

____________________

    
Thursday, March 13, 2003


U.S. House of Representatives

Subcommittee on Employer-Employee Relations

Committee on Education and the Workforce

 U.S. House of Representatives

Washington, D.C.





	The Subcommittee met, pursuant to notice, at 1:05 p.m., in Room 2175, Rayburn House 
Office Building, Hon. Sam Johnson, Chairman of the Subcommittee, presiding.

	Present:  Representatives Johnson, Ballenger, Platts, Tiberi, Cole, Kline, Blackburn, 
Andrews, Payne, Tierney, McCollum, and Case.

	Staff present:  David Connolly, Jr., Professional Staff Member; Kristin Fitzgerald, 
Professional Staff Member; Travis McCoy, Legislative Assistant; Ed Gilroy, Director of 
Workforce Policy; Greg Maurer, Coalitions Director for Workforce Policy; Christine Roth, 
Workforce Policy Counsel; Kevin Smith, Communications Advisor; Kevin Frank, Professional 
Staff Member; Counsel; Deborah L. Samantar, Committee Clerk/Intern Coordinator.

Michele Varnhagen, Minority Labor Counsel/Coordinator; Dan Rawlins, Minority Staff 
Assistant/Labor. 

Chairman Johnson. A quorum being present, the Subcommittee on Employer-Employee 
Relations will come to order.  The Subcommittee is meeting today to hear testimony on H.R. 660, 
the Small Business Health Fairness Act.

	I'm eager to get to our witnesses today, so I'm going to limit the opening statements to the 
Chairman and Ranking Member.  Therefore, if other Members have statements, they will be 
included in the hearing record.  With that, I ask unanimous consent for the hearing record to remain 
open for 14 days to allow Members' statements and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.  Without objection, so ordered.


OPENING STATEMENT OF CHAIRMAN SAM JOHNSON, 
SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE

	Good morning, Ms. Combs.  Let me extend a warm welcome to all of you, to the Ranking 
Member, Mr. Andrews, and my other colleagues who are here today.  As many of you know, this is 
Cover the Uninsured Week.  That's one key reason we're here today.  Today's hearing focuses on 
H.R. 660, the Small Business Health Fairness Act, and how this bill will expand access to health 
care for uninsured Americans.

	We will hear from the Administration, a small business owner, and policy experts on the 
effects of association health plans on the uninsured.

	As you recall last session, this Subcommittee took the lead regarding the rising costs of 
health care and how they impact employers and employees.  In the last year alone, employers' 
health care benefits costs have increased by an average of 13 percent.  In the year 2002, over 41 
million Americans were uninsured.  That means one in seven Americans went without health 
insurance.

	You might ask just who these uninsured are.  Well, they're working people who can't afford 
insurance, don't have access to insurance, or their employer can't afford to participate in a plan for 
them.  Sixty percent, that's 24 million, of uninsured Americans work in small businesses.  Some of 
these people are offered insurance and turn it down, because they can't pick up their part of the tab.

	As the latest Kaiser health poll report reveals, more Americans are worried about health 
care costs today than about losing their job, paying their rent, losing money in the stock market, or 
being a victim of a terrorist attack. Specifically, the report found that nearly 40 percent of 
Americans say they are very worried that their expenses for health care services or health insurance 
will increase over the next six months.  Studies show health care costs are rising 15 to 20 percent a 
year under current rules.  These same Americans are worried their income might not keep up with 
the rising prices in the next six months.

	To combat these problems, I worked with a bipartisan group from the House and Senate to 
introduce the Small Business Health Fairness Act to create Association Health Plans (AHPs).  This 
bill would allow small businesses to band together through associations to purchase quality health 
care at a lower cost.  It will significantly expand access to health coverage for many of the 41 
million uninsured Americans.  The bill will increase small businesses' bargaining power with health 
care providers, give them freedom from costly state-mandated benefit packages, and lower their 
overhead cost by as much as 30 percent.

	These are all real benefits that many large corporations like General Motors, Frito-Lay, and 
U.P.S. as well as many unions, already enjoy because of their larger economies of scale. It's time 
we leveled the playing field for small business and gave them the health care clout they deserve.

It's time they had access to AHPs.


WRITTEN OPENING STATEMENT OF CHAIRMAN SAM JOHNSON, 
SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS, COMMITTEE 
ON EDUCATION AND THE WORKFORCE - SEE APPENDIX A



Chairman Johnson   I'd like to welcome all of our witnesses who are here today, and we look 
forward to hearing your testimony. But I now yield to the distinguished Ranking Member of the 
Subcommittee from New Jersey, Mr. Andrews, for whatever opening statement he wishes to make.


OPENING STATEMENT OF RANKING MEMBER ROBERT ANDREWS, 
SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE 

Thank you, Mr. Chairman.  Good afternoon, ladies and gentlemen.  I'd like to thank you for 
your continuing interest in this subject, your good faith in dealing with the Minority, and your 
eagerness to present us with information.  I enjoy working with you on this and look forward to it.

	We believe that the highest priority in the area of health care in our country is dealing with 
the needs of more than 40 million uninsured Americans.  For many years, people felt that economic 
growth would solve the problem of uninsured Americans.  We had higher economic growth in the 
1990s than we had in virtually any other decade since World War II.

	But even in a decade where unemployment fell by more than 50 percent, where the welfare 
rolls dropped by 53 percent, where the equity markets nearly quadrupled in value, where the gross 
domestic product went from $3 trillion to nearly $10 trillion, despite all that growth, the number of 
uninsured people went up, not down, in the 1990s.  So we understand there are systemic problems 
in the U.S. health care system that have led to this enduring and difficult problem.

	We have three concerns about the Association Health Plan idea.  The first is its relative lack 
of power or efficiency in dealing with the problems of the uninsured. Most adults who are 
uninsured work, either full-time or part-time.  But they work in low-wage, entry-level jobs, 
typically for employers who are in industries that have very thin margins. It is my belief that most 
of these employers would love to provide health insurance for their employees, but they're not in an 
economic position where doing so is viable.

	Even if Association Health Plans work as their most avid backers hope they would, the 
impact on health insurance premiums would be such that growth might be moderated, or perhaps 
there would be a minimum or minor reduction in premiums.

	That's not nearly enough to justify an employer who is operating on a 1 or 2 percent margin 
to spend $10,000 per family to buy family health insurance coverage for their employees.  It just 
isn't going to make much difference for most of the uninsured people of the country, even if it 
works the way its proponents would advocate.

	Our second concern is the effect that the AHP plan would have on some very important 
protections for consumers and patients in the country.  All across the nation, people have lobbied 
their state legislatures to make sure that when a woman gives birth through a C-section, that there is 
a minimum stay in a hospital; that when a woman has a radical mastectomy, there is a minimum 
stay; that services such as colon cancer screenings or breast cancer examinations must be included 
in the package of benefits someone gets when they receive a health insurance policy.  We are 
gravely concerned that AHP proposals would strip those protections from consumers across the 
country.

	The third concern that we have is that we have some experience in ERISA when we 
compare an entity that is closely watched and regulated with one that's not.  And I believe the AHP 
plan effectively creates a deregulated zone of federal law for health insurance.

	You could make an argument that a similar deregulated zone exists in pension law with 
respect to 401Ks. Now, 401Ks have been a magnificent and positive thing for the country.  We 
support them.  We wish more people had more money and more of them. The Subcommittee's 
recent exploration, however, of the Enron scandal would show that there are some serious 
deficiencies in the protections that pensioners enjoy with respect to self-directed retirement 
accounts.

	We had Mr. Tom Padgett, an employee of the Enron Corporation, testify before this 
Subcommittee some months ago. He's an individual who had $600,000 in his 401K in 1999 and 
$15,000 in his 401K by the time he testified before the Subcommittee, because he had all of his 
investment in the stock of his employer, which sadly turned out to be Enron.

	I think that following that model and creating a protection-free zone in ERISA for health 
insurance would be a troubling prospect indeed.  We don't want to over regulate.  We understand 
that for employers to voluntarily adopt plans, the cost must not outweigh the benefit.  But we're 
very concerned that these plans would raise the objections that I talked about.

	Having said that, we think it's important to have hearings so people can argue and thrash out 
these questions, that we can ask questions and work together, learn more about this.

	So Mr. Chairman, we look forward to hearing from the witnesses.  I would ask for 
unanimous consent that statements in opposition to the AHP proposal from the National 
Association of Insurance Commissioners, the HIAA, the Health Insurance Association of America, 
Families U.S.A., the National Small Business United, and several others be admitted to the record.

Chairman Johnson. I'd be glad to do that.  At the same time, I would ask unanimous consent to 
enter into the record all those who support this plan.

Mr. Andrews. Absolutely.

Chairman Johnson. Thank you.  Hearing no objection, so ordered.
	
Our only witness on the first panel is the Hon. Ann Combs.  And we appreciate your return.

	As you all know, Ms. Combs is the Assistant Secretary of the Employee Benefits Security 
Administration (EBSA). Before her appointment, Ms. Combs was Vice President and Chief 
Counsel, Retirement and Pensions issues for the American Council of Life Insurers.  During the 
Reagan and prior Bush Administrations, Ms. Combs spent six years as Deputy Assistant Secretary 
of Labor for EBSA.  Her previous experience includes the National Association of Manufacturers 
and PriceWaterhouse, Inc.

	On behalf of the Subcommittee, I welcome you back. Thank you.  You may begin your 
testimony.

STATEMENT OF THE HONORABLE ANN L. COMBS, ASSISTANT 
SECRETARY, EMPLOYEE BENEFITS SECURITY ADMINISTRATION, 
U.S. DEPARTMENT OF LABOR, WASHINGTON, D.C.

Thank you, Mr. Chairman, and Ranking Member Andrews.  I appreciate the opportunity to 
appear before the Subcommittee on this very important issue.

	The Bush Administration is dedicated to helping small businesses gain access to affordable 
quality health insurance, and the AHP legislation introduced in the House by a bipartisan group of 
lawmakers is a critical part of our agenda.

	As events occur around the nation during Cover the Uninsured Week, there is simply no 
better time for discussing this proposal that can do so much for so many American men and women 
who work for small businesses.

	As the head of the EBSA, which would be directly responsible for the regulation, 
administration, and enforcement of Association Health Plans, I am personally dedicated to making 
sure this legislation will deliver the health care benefits it promises to American workers and their 
families.  And I have the full support of Secretary Chao and the Administration in this effort.

	AHP legislation is the centerpiece of the President's efforts to expand health insurance 
opportunities for all Americans, and we're very pleased that you have made passage of this bill an 
immediate priority, Mr. Chairman.

	Unfortunately, we have all become accustomed to hearing about double-digit health care 
inflation and the vulnerability of small businesses in the insurance market. But this Subcommittee, 
more than any other, recognizes that behind these statistics are millions of people who struggle to 
make ends meet to keep themselves and their families protected with quality health insurance.

	Indeed, the statistics demonstrating the crisis facing small businesses and their workers are 
startling.  Not only are small businesses half as likely to provide insurance to their employees when 
compared to larger firms, but also the costs of those that do provide coverage are 20 to 30 percent 
higher.  Even worse, their costs are rising more than 60 percent more rapidly than costs for a larger 
firm.

	Today's health insurance market has simply failed small businesses and their workers.  The 
status quo has failed the small businesses that are the engine of our country's economic growth.  
The status quo failed the small businesses that create two out of every three new jobs in our 
country. And rising health insurance costs are the greatest impediment employers face that want to 
hire new workers, according to recent surveys by the Conference Board.

	Small employers tell us that they want to provide coverage, but they can't because of costs, 
legal barriers, market barriers, and the threat of fraud.  Association Health Plans are aimed squarely 
at filling the gap in coverage among small businesses.  By banding small companies together, 
AHPs will give small employers many of the economic and legal advantages currently enjoyed by 
large employers and unions. Small businesses will enjoy greater bargaining power, economies of 
scale, and administrative efficiencies, as well as the benefits of a uniform federal regulatory 
structure.

	The Bush Administration is committed to making sure that the benefits of AHPs are 
available to as many small businesses and workers as possible.  They will work best if they broadly 
spread risk and make insurance affordable for qualifying individuals regardless of their health 
status.

	H.R. 660 includes numerous provisions to encourage broad pooling of risk, and to protect 
against cherry picking of low-risk individuals.  Only bona fide associations in existence for three 
years for purposes other than providing health insurance can offer an AHP.  AHPs must offer all 
available options to everyone in the association.  They must follow HIPAA's requirements to cover 
preexisting conditions, and to charge healthy and sick employees of the same company the same 
premium.

	And this year's bill, H.R. 660, explicitly bars AHPs from charging one participating 
company more than others based on health status, unless the state law allows it and they choose to 
follow the state law.  That means they cannot set prices based on participants' medical condition, 
medical history, claims experience, their receipt of health care, genetic information, or disability.

	Let me turn now to another important safeguard in the bill's solvency requirements.  AHPs 
offering fully-insured health plans would have to comply with state solvency rules, just as fully-
insured group health plans offered by large companies and unions do today.  The AHP legislation 
would not undermine these protections.

	AHPs that offer self-insured coverage that pay the claims out of their own funds will be 
subject to a single effective national certification solvency and oversight process that will be 
administered by the Department of Labor. Contrary to some critics' claims, self-insured AHPs will 
be fully regulated by the Federal Government.

	To combat fraud and to further insure solvency, AHPs would have to meet federal 
certification standards and comply with rigorous ongoing oversight by the department.  EBSA will 
examine AHP sponsors to make sure they are bona fide trade or industry associations, meet the 
membership requirements, and satisfy the solvency and financial rules necessary to establish a self-
insured AHP.

	The financial requirements are strong.  They must set premiums and maintain reserves that 
are actuarially adequate to cover claims.  They must maintain an additional financial surplus as a 
cushion.  They must carry stop-loss insurance to cover unusually large claims.  They must carry 
indemnification insurance to cover unpaid claims if the AHP terminates.  And the Department of 
Labor will establish a fund to continue to pay premiums to a terminated AHP's indemnification 
insurance so that it will not lapse.  These provisions parallel the requirements that states impose on 
health insurers, and are essential to insure that AHPs deliver promised benefits.

	AHPs will also give small businesses the benefits of a uniform oversight system instead of 
having to comply with as many as 50 different sets of regulations.  Associations will be able to 
fashion coverage that best meets their members' needs and budgets.

	Finally, I would note that AHPs must comply with the full range of important federal 
standards passed by Congress for existing group health plans.  These include the strict fiduciary 
and claims procedures of ERISA, as well as HIPAA, COBRA, Mental Health Parity, the Newborns' 
and Mothers' Health Protection Act.

	What we are tackling here today is truly a crisis. "Uninsurance" is on the rise, and 
premiums are skyrocketing. Small business employees and their families are especially at risk of 
losing or being unable to obtain quality insurance coverage.

	Fortunately, this crisis can be abated through a voluntary private market-based solution, 
AHPs.  Small business insurance coverage can rise rather than fall if we act now. The Department 
of Labor has a long history of effectively regulating and enforcing federal laws regarding group 
health plans, as well as combating insurance fraud.  We will confidently carry out the AHP 
responsibilities contemplated by the legislation with effective and timely regulation, oversight, and 
enforcement.

	I'd be happy to respond to any questions the Subcommittee has, and I look forward to 
working with all of you to help enact and administer legislation that expands access to affordable 
quality health insurance for working Americans and their families.  Thank you.


WRITTEN STATEMENT OF THE HONORABLE ANN L. COMBS, ASSISTANT 
SECRETARY, EMPLOYEE BENEFITS SECURITY ADMINISTRATION, U.S. 
DEPARTMENT OF LABOR, WASHINGTON, D.C. - SEE APPENDIX B

	
Chairman Johnson. Thank you.  We appreciate your testimony.  

Ms. Combs, let me ask you.  Critics of the AHPs charge that the Department of Labor lacks 
the ability to oversee and regulate AHPs effectively.  Are they right?  If so, what can we do about 
it?  And if they're wrong, can you explain why?

Ms. Combs. I'm convinced that the Department of Labor is fully capable of taking on the 
responsibilities that are contemplated in this bill, and of overseeing and enforcing the law with 
respect to AHPs.

	We currently oversee 2-1/2 million health care plans.  We cover 131 million Americans.  
And there are 67 million people who are in self-insured plans that are solely regulated by the 
Department of Labor.  We have a good track record.  Those plans provide good benefits, quality 
benefits, and do not present terrific enforcement risks.  In addition, we are solely responsible for 
overseeing five million people who work in multi-employer union plans that are not covered by 
state regulation.

	In addition to ERISA, as I mentioned, we administer COBRA, HIPAA, WHCRA, I could 
go through all of the acronyms, The Newborns' Act, and Mental Health Parity.  We have a good 
relationship with the states in working with these issues.  I know there are some differences in 
policy.  But at a working level, I can assure you we work closely with the NAIC and the state 
insurance commissioners.  We were just at their quarterly meeting this week, on Monday, working 
with them and explaining to them a new compliance assistance program we've put in place for 
health care.

	We have a strong enforcement policy.  We have 116 civil and 25 criminal investigations 
open right now into MEWA fraud, which is a problem.

	So I'm convinced that we can do this.  We have expertise in the health care area.  Yes, if 
this legislation passes, we will need to take on additional responsibilities. We're fully prepared to 
do that.

Chairman Johnson. It appears that your Department recently released a report entitled Health 
Disclosure and Claims Issues, FY 2001 Compliance Project Report. Could you comment on its 
relevance to the Department's ability to oversee AHPs?

Ms. Combs. Sure.  I think it's a good example of the kind of work we've been doing in recent 
years.  The Department has really stepped up, in the last three to four years, its focus on health care.  
This was a project where we selected 1300 health plans to look at and see whether they were 
complying with all the new laws that had been enacted in the late '90s.  You had HIPAA and the 
Women's Health Care Act, The Cancer Act, and those laws.

Chairman Johnson. Well, I'm sure you could think of another acronym.

Ms. Combs. There are many of them.  But we went out and we actually looked at these plans to 
see if they were complying.  We identified those areas where compliance was an issue, notice 
provisions, and we worked with the health plans to point out problems.  We had great success and 
great cooperation from health plans.

	In many instances, we would sit down with plans and identify a hidden preexisting 
condition exclusion that was in their policy, and they were willing to fix that.  I think it 
demonstrates our experience and our knowledge.  We took that report and used it to develop a 
compliance assistance program, where we're doing outreach with health plans, with the states, with 
the insurance commissioners.  We developed model notice provisions so that people would know 
how to comply with the laws and audit checklists.

	We're very proactive in this area, and we'll take that same kind of spirit and determination 
and apply it to AHPs.

Chairman Johnson. You also mentioned that critics charge that the creation of national AHPs will 
result in what's called cherry picking, by which they mean the market will be segregated into two 
groups, one that is young and healthy, and the other one that's elderly and sick.  Can you review the 
reasons why you don't believe this is the case?

Ms. Combs. We're very concerned about cherry picking, and I know that the Subcommittee is and 
should be.  We don't want to destabilize the insurance market.  What we want to do is create a 
viable alternative for small businesses.  So I think it is important, and the law does contain very 
significant protections to prevent cherry picking.

	I mentioned several of them in my testimony.  You have to be a bona fide association that 
isn't in existence just to sell health insurance.  You have to make the options that you offer through 
the AHP available to everyone who is qualified to be a member of the AHP.  You can't charge 
different individuals different rates based on their health status.  That's a new addition to this year's 
bill, and I think a big improvement.  It picks up health status that was included in HIPAA.

	So there are a number of provisions here.  And obviously, we want to work with the 
Subcommittee and with others to make sure that we're not creating a situation where people are 
only skimming off the healthy risk.  We need broad pooling, that's what this is all about, to keep the 
costs down, and to make sure that insurance is available to people who need it.

Chairman Johnson. Thank you.  One more question.  We often hear about the importance of state 
mandates and consumer protection to the small group market.  I understand that the financial 
burden these mandates place on small business is responsible for one in every five decisions by a 
small employer not to offer insurance.  In your opinion, should we focus on increasing the number 
of Americans with insurance, or focus on making sure every single state mandate is met?

Ms. Combs. I think we have a crisis facing the health insurance system, and I think that small 
businesses make up a disproportionate share of the people who are lacking insurance coverage.  It's 
a balancing act, and the status quo is just not acceptable.

	I think that benefit mandates do add to costs. There are protections in the AHP legislation. 
They would be subject to the federal mandates that Congress has seen fit to impose nationally, such 
as COBRA, HIPAA.  They are subject to the claims procedures under ERISA. They're important.  
Fully-insured AHPs will continue to be subject to some of the state protections about market 
conduct and licensing of brokers and the insurance companies that write those policies and the 
external review systems in those states.

	So we think it strikes an appropriate balance.  But we do need to get costs down.  We do 
need to make insurance more widely available.  And the status quo has failed.

Chairman Johnson. Yeah.  The ultimate goal is to get more Americans insured.  

Mr. Andrews, do you care to query?

Mr. Andrews. I do.  Thank you, Madam Secretary, for your testimony.  As usual, it was well 
thought out, and we appreciate you being here.

Ms. Combs. Thank you.

Mr. Andrews. I agree with you there is a crisis in health insurance, and I agree that the data make 
it obvious that it's focused on what you refer to in your testimony as low-paying small firms.  You 
define these firms as firms with a relatively small number of employees that pay no more than 
$9.50 an hour, on the average. I think that's the way you defined it, where only 34 percent of the 
employees employed by such firms have health insurance. I agree that that's the crux of the 
problem right there.

	I'm extremely skeptical that the proposal that you embrace will do anything about that at all.  
And I want to walk through the numbers with you to point out the reason for my skepticism. If we 
take that $9.50 an hour and actually make it a little higher, take a person making $10 an hour 
working full-time, makes $400 a week gross pay.  On page 11 of your testimony, you cite a CBO 
study that says that savings from AHPs could be as much as 25 percent for employers.

	Let's assume that that's correct.  I'm not willing to make that assumption.  But for the 
purpose of this question, let's assume that that is correct.  In the market that I live in, a family 
health insurance policy costs about $10,000 per family per year.  If this plan went into effect and 
worked gloriously well and reduced the premium by 25 percent, that plan would cost $7,500 per 
family per year.  If you divide that out, it comes to $144 a week.  If the employer were to provide 
two-thirds of the cost of that coverage for an employee, it would be about $100 a week.

	Employers in low-margin companies that don't make much money are not going to take a 
$400-a-week employee and increase that person's compensation by 25 percent and spend $100 a 
week on their health care.  I'm sure they would love to, but that's just out of the question for them 
doing.	Under what set of circumstances are you arguing that the employee in that situation is going 
to get health care coverage because of this proposal?

Ms. Combs. I think that you're absolutely right. That is the toughest market to penetrate, if you 
will.  I think this proposal will vastly improve the situation.  There will be employees and 
employers who will be able to do it. There may be a second earner in a family who can actually 
take a significant portion of their wages and dedicate it to purchasing health insurance for their 
family.

Mr. Andrews. But I'm already assuming in my example that a third of the cost is paid by the 
employee, a person making $400 bucks a week taking $50 bucks a week out of that to pay for 
health care.  I'm not sure that works either. But I've already assumed that it does.  How is the 
employer going to come up with $100 per employee per week for an employee making $400 a 
week?

Ms. Combs. Well, the surveys of the employers show astonishing percentages of them, above 75 
percent, say they would be very likely to try to offer health insurance.  I don't think we're going to 
get 100 percent coverage.  I don't think this bill will cover all 41 million Americans.  I think we can 
make a real dent in it.

Mr. Andrews. I'm surprised that not 100 percent say they would offer health insurance, because 
the questions usually imply that it's affordable.  This is not affordable. I grant you, if someone is 
making $45,000 a year, and it's in a higher-margin industry, if your 25 percent number has any 
reality to it, it might get more people covered.  But your own data show that the vast majority of 
uninsured working people are low-wage people in low-margin industries, and  I don't see where the 
coverage comes from.

Ms. Combs. Well, I think this is also a piece of how you tackle the problem of the uninsured.  
We're also looking at tax credits to help people in those situations purchase insurance.

Mr. Andrews. Does the President's budget include tax credits for uninsured people?

Ms. Combs. Yes.  We have a proposal for tax credits for the uninsured.

Mr. Andrews. Is it in the budget?

Ms. Combs. I don't know the answer to that.  I'll get back to you.  We've supported that.

Mr. Andrews. But none of the President's tax cut proposal has a tax credit for uninsured people, 
does it?

Ms. Combs. I think it's separate from the growth package.  The tax credit for the uninsured was 
just expanded through the Trade Adjustment Assistance.  And there are other tax credits to help the 
uninsured.  I think $1,000 for individuals and $3,000 for families is the refundable tax credit.  
That's aimed at helping those people who are really struggling and at a margin.

	I think a 25 percent reduction in premiums is significant.  I also think we can get there.  I 
think this will create competition in the market.  It will give small employers the kind of leverage 
they need to negotiate with insurers to drive prices down.

	We have to tackle the problem of health care costs across the board.  But I think this is an 
important piece of that, and I think it can really make health insurance available for a significant 
portion of the people.

Mr. Andrews. I don't dispute that a 25 percent reduction in premiums would be very significant.  I 
would dispute whether this proposal would cause it.  I think that's highly questionable.

	I think that even if you assume that, when you look at the kind of employer and the kind of 
employee who's not getting coverage, the price just doesn't drop by nearly enough to put this 
anywhere within the employer's realm of possibility.  No employer that I know who is hiring $10-
an-hour people can afford to give that worker a 25 percent raise, which is what this really would be 
about, even if the employee covers a third of the cost herself or himself. So I think it's very 
important we not oversell the idea that this is going to get a lot of people covered who are not.

	I think my time is probably up.  You didn't turn the light on, which I appreciate.  But I think 
it's unfair to my colleagues to not yield back, which I will do.

Chairman Johnson. Mr. Ballenger, do you care to question?

Mr. Ballenger. Yes, sir, if I may.

Chairman Johnson. We'll turn the light on for you, if that's okay.

Mr. Ballenger. I'd just like to say that I've been in business a long time, and I've been watching 
health insurance plans for 45 years.  And I can remember back in the old days when you got a 
simple Blue Cross plan, and there were about two things it would cover.  And no matter what 
happened, you paid all the costs for your employee, because health care was pretty cheap back in 
those days.  

	Later, you got into a regular plan that gave you full coverage for a whole bunch of stuff, and 
you still covered all the costs.  And then you began co-payments when things started going up, and 
employees started figuring some of it out.

	I think one of the strangest things that we're discussing on the floor today, and one thing 
that really proved a point to me, is the fact that we found out that when we were insuring ourselves 
we could cut our health insurance costs almost in half by not covering the delivery of children.  The 
most expensive part of any health care plan, at least back in those days, was the fact that you 
covered the birth of children.

	We saw on "60 Minutes" not too long ago that the doctors and the hospitals and so forth 
were so likely to get sued that the most sensible thing to do was to say, "I'm sorry, we don't cover 
that.  And we hope that you can find some way to take care of it."

	But anyhow, we just pulled delivery costs out of our health plan.  We used to cover the 
families, and then we gave it to the employee to cover the families.  We used to have no co-
payments.  Now we do have co-payments.  We've got 225 employees.  I think we fit some of this 
constituency that you're speaking of.

	One of the things that maybe our friend from New Jersey doesn't realize about $10 an hour 
employees is that I'm not talking about right now, but two years ago.  My pay is better than $10 an 
hour.  But two years, you would very definitely offer health insurance, even though it costs a 
substantial amount of money, because you had to hold the employees.

	Health insurance and retirement are two things that you've got to offer nowadays.  And I 
would say that if we could somehow stop the increase in health insurance cost, this plan would 
work very well.

	I know when we started there were no regulations. In fact, I think we had the plans that 
we're talking about.  We belonged to a group of people that had a plan.  And then all of a sudden, 
the government started regulating it, and we had to get out of it. The government has screwed up as 
many things as it's helped. And you've got to realize I'm biased.

	You stated that you have regulated other plans and so forth? So you've got the experience to 
do this, even though the numbers would be greater.  And common sense says that he, to a very 
large extent, is correct, that there are going to be 15 to 20 percent of the people that are never going 
to offer health insurance no matter what it is. It's just too expensive.  It's a little bit like the people 
that you hire to pick cotton, or the people that you hire to cut down Christmas trees and things.  
They'll never get health insurance.

	I realize that with Association Health Plans, in my considered opinion, the cherry picking 
used to be the big argument against them.  And I think that according to what you all say here, that 
is pretty well taken care of.  If so, all those names that he mentioned that might be against this plan 
would disappear, if there really were protection against cherry picking.

	I don't really have any questions.  All I wanted to do is preach.

Chairman Johnson. Well, you did pretty well.  What I wonder are state mandates a problem for 
you, because that, apparently, is what's causing some of the prices to go up?

Mr. Ballenger. Yes, I think the state mandates may be a problem.  If you're going to cover an 
employee with regular health care, and you've got to throw in mental health care, who knows what 
the cost of that is going to be.  And slowly but surely, somebody is going to throw in dental costs as 
well.  All of these things may be forced by state and federal regulation.  I hope they're not.

	But anyhow, I thank you for your testimony.

Ms. Combs. Thank you.

Chairman Johnson. Does the gentleman from Hawaii wish to question?  Mr. Case?

Mr. Case. Thank you, Mr. Chair. 

I don't have any preaching to do.  I just have some questions.

Chairman Johnson. That's allowed, too.

Mr. Case. Thank you.  In my State of Hawaii we have a rather unique state law which requires 
prepaid health care through our employer system, and to a great extent if you are employed, you 
must be covered.  And we have an exemption from ERISA that allows us to operate that system.

	Now, that system exists for better or worse, and needs a little bit of amending.  But I believe 
that I asked Secretary Chao in a previous hearing about the impact of this bill on that system.  And 
I just don't know if you have an answer for me today.  But if you don't, that's fine.  I'm just 
reminding Secretary Chao that she undertook to respond to me on exactly how this might impact a 
pretty unique state law.

Ms. Combs. Yes, she asked me to look into that, and I do have an answer for you today. 

Our reading of the bill is that it would not affect Hawaii's health law.  How the bill would 
work is employers in Hawaii would be able to offer AHPs as an option, but they would have to 
include the benefits that were mandated by the State of Hawaii.  That's unique to Hawaii because of 
your situation.

	In the other states, they would not have to offer the benefit mandates, but in Hawaii they 
would have to offer those mandates that are in Hawaii's act.  That would be the only effect.  
Otherwise, they would be able to offer it as another option for the workers in Hawaii.

Mr. Case. Okay.  Thank you very much for that answer, first of all.  That's helps.  So do I 
understand, then, that in Hawaii, if an employer is required, under the provisions of state law, to 
offer health insurance because that employer meets the requirements of our law, that employer 
simply has an option under this bill to offer that insurance through an AHP?

Ms. Combs. That's right.

Mr. Case. Okay, thank you.  

Nobody has said much about the provisions of this law relating to collective bargaining.  
But do I understand the bill correctly that if an employer and a representative employee group wish 
to negotiate a different scheme, they can do so?  Is it that open, that loose, that if there is a 
separately negotiated health care coverage system, that they can basically opt out of this law, or do 
they have to fit within the AHP process?

Ms. Combs. Typically I don't think we expect that many collective bargaining plans would join 
AHPs, because they negotiate the benefits between themselves, and in the multi-employer context, 
the participating employers.  I don't think there's any restrictions in the law, and I'm not 100 percent 
sure we couldn't, but they couldn't agree to negotiate or bargain to offer a policy through an AHP.  I 
don't think that's what people feel would typically happen, but I don't think there's any reason that it 
couldn't happen if the union and the employers agree that was the best and most efficient and cost-
effective way to deliver health care.

Mr. Case. Was that true for government collective bargaining as well, or does this bill affect state 
and county government provisions of health insurance?

Ms. Combs. I don't know the answer to that.  I'll have to get back to you for the record.  I'm sorry.

(NOTE:  This item was not submitted prior to the official printing of the hearing transcript.  
However, the item will be maintained upon its submission and available for inspection in the 
Majority office of the Committee on Education and the Workforce.)

Mr. Case. Okay, because again, in my state, as well as most states, we have pretty extensive 
coverage and my state negotiated through collective bargaining with public employees.

Ms. Combs. Well, one of the hopes is that if AHPs come into existence, and there is this ability for 
larger groups to negotiate reductions, that will create competition in the health insurance market in 
general.  So even if they're not participating in AHP, the hope is that they'll be able to take 
advantage of some lower health prices.

Mr. Case. And finally, I'm not sure I understand the impact of this law, if any, on medical savings 
accounts.  I just don't understand the connection there.  Is there any?

Ms. Combs. I think they're on parallel tracks.  I think you could have a medical savings account 
and use it to purchase coverage through the Association Health Plan.  The medical savings account 
(MSA) is kind of a financing mechanism, and this is the actual delivery mechanism.  So you would 
be able to take advantage of the tax advantages through the MSA to purchase an AHP.

	But again, we'll follow up with you for the record. H. R. 660 was just introduced, and I'm 
not exactly sure of the intricacies.

(NOTE:  This item was not submitted prior to the official printing of the hearing transcript.  
However, the item will be maintained upon its submission and available for inspection in the 
Majority office of the Committee on Education and the Workforce.)

Mr. Case. I was just noting in some testimony, and I forget whether it was your testimony, the fact 
about the advocacy for improving the applicability coverage of medical savings accounts.  And it 
just occurred to me that I think I support the general direction of that testimony.  But it also 
occurred to me that if you did provide that expansion of the ability to use MSAs, it might well 
enhance the utilization of this particular mechanism.  Is that right?

Ms. Combs. I think that's right, and make it more affordable.

Mr. Case. Thank you.  I yield back.

Chairman Johnson. You're right.  It's an uninsured package.  The medical savings accounts are 
not considered under this bill.

Mr. Kline, do you care to query?

Mr. Kline. Yes.  Thank you, Mr. Chairman.  And thank you, Ms. Combs, for being here and 
answering our questions.

	This bill appeals to me very much both its goals and how it's laid out.  But in looking at 
legislation since being newly elected to this Congress, this one is extremely confusing to me, 
because it seems that every claim is virtually countered by an opposite claim.  And the critics of 
this bill say, for example, that not only will it not lower costs and expand coverage, but will in fact 
increase premium costs and not expand coverage at all.  I'm looking at a claim here that will make 
coverage unaffordable for older and sicker groups.

	Would you care to address either one of those?

Ms. Combs. I think the latter claim is really more relevant to the prior bill.  I think there was 
concern that there was not sufficient protection in the legislation to prevent cherry picking on the 
basis of health status. The bill that's been introduced this session, H.R. 660, explicitly prohibits 
pricing on the basis of health status, or rating premium cost on the basis of health status.

	So I think as I said in my testimony, that is a major improvement over the earlier versions 
of the bill.  And I think that addresses a lot of the concerns expressed by people in the insurance 
market.

	This bill, you know, shakes up the status quo.  It's going to introduce more competition into 
the health insurance market, and that makes people nervous.  We need to work together and we 
need to resolve that and make sure that doesn't happen.  I think a lot of the concerns have been 
addressed, and I think we can continue to work to make sure that does not happen.

Mr. Kline. Thank you.  I yield back, Mr. Chairman.

Chairman Johnson. Thank you.  I think Mr. Andrews would agree that competition is healthy.

Mr. Andrews. Very healthy.

Chairman Johnson. Even among us.  Ms. McCollum, do you want to question?

Ms. McCollum. Yes.  Thank you, Mr. Chair.  I have a few questions.  I want to ask about a 
conversation that's kind of loosely being held here about what's going to be covered and what's not 
going to be covered; a comment about state mandates.

	In Minnesota, we had to pass a law to make sure that insurance companies provided needles 
along with the insulin. In Minnesota, we've passed a law to allow women to see obstetrics and 
gynecology physicians within the plan assortments and offer that as primary care if that's what a 
woman chooses. I know many health plans don't cover contraception, yet they'll cover Viagra.

	I want to know who are going to be the winners and losers in deciding what is mandated 
coverage and what is not. Because I find it rather interesting that the federal government is going to 
implement a plan in which all 50 states have all this flexibility and options when it comes to health 
care.

	Then the other question I have has to do with status.  I heard you talk about age.  What 
about gender?  What about age?  What about what happens in those cases?

Ms. Combs. On the first question on mandates, I think that this bill represents a balancing of 
access to health insurance and the kind of "Cadillac" plans, as people call them, that cover broad 
and all varieties of benefit mandates that have been enacted over the years at the state level.

	It does try to level the playing field and make available to small businesses the same sort of 
exemption from state benefit mandates that are available to large employers. One of the main 
reasons large employers self-insure is so that they don't have to comply with the 50 different states' 
benefit mandates.

	Many of those plans continue to offer those same sorts of coverage.  Covering obstetrics 
and gynecology is common, obviously, in self-insured markets.  And I would expect, particularly 
since most of small business owners are women, maternity and child care delivery to be covered by 
these plans, or they're not going to want to participate in them because they're not going to cover a 
benefit that they need.

Ms. McCollum. That wasn't what I said.

Ms. Combs. I'm sorry.

Ms. McCollum. I said women in Minnesota have a choice of having their designee the obstetrics 
gynecology professional.

Ms. Combs. Oh, not having to go to a gatekeeper to receive it?

Ms. McCollum. That's correct.

Ms. Combs. Right.  Well, that has not been passed as a federal mandate.  But again, I think the 
market has moved in response to a lot of the discussions that have taken place over recent years 
about tightly-controlled managed care.  The market has moved beyond that, I believe.

	But you are correct that this bill would not require AHPs to offer that mandate.  And it's a 
trade-off in terms of cost.  

Ms. McCollum. I have to make a decision to vote on this bill, and I've been through some of these 
battles.  We had a battle to pass a law that said diabetics who were receiving insulin could also 
have their needles covered.  And I just want to know before I vote on this if I'm undoing that in my 
home state.  Because I don't want to go back home, and have small business owners not realizing 
the plans that they are providing don't have these fundamental health care rights in them.  So I'm 
trying to grapple with that.

	But could you tell me how this is going to affect gender, and how this is going to affect 
age?

Ms. Combs. The bill does allow AHPs to underwrite insurance based on risk.  They cannot charge 
different prices for health status, but they are allowed to charge different prices for age and gender.  
In many states a lot of insurers who underwrite charge different rates for age and gender.

Ms. McCollum. So if I hear you correctly, if I am a small business and we allow this plan to move 
forward, it's more expensive to cover women, because they become pregnant, or they would like to 
have access to contraception. I know we have laws in place against workplace discrimination but 
maybe subtly I won't hire women.  Or maybe I don't start hiring older people, because they might 
be more predisposed to heart conditions.

	What kind of guarantees are we going to put in these plans to protect consumers?

Ms. Combs. It is a very complicated piece of legislation, I will say, but as I understand it the bill 
would allow the AHP to underwrite on the basis of age and gender, which means they could charge 
different rates.  But they couldn't charge individuals who work for a company differently.  They 
couldn't charge the women more than they charge the men.  What they could do if an employer had 
a work force that was much older than average, they could charge the employer a different 
premium if they chose to, but they wouldn't have to. This happens under state insurance laws in 
many states.  It may not be in Minnesota, but many states do allow that.  And again, the idea here is 
to give people access to health insurance.

	I understand and I'm sympathetic to the issues and the concerns, but we're arguing for the 
status quo.  This is a balancing act to give people access to insurance.  The price should come down 
because of the risk pooling, because of the efficiencies, because of administrative costs.  But there 
could be some differential based on age and gender and other factors, just as there are in states 
today.

Mr. Cole. [Presiding]  Well, Madam Secretary, this is an interesting experience.  It's very heady for 
me.  It's like the first time your dad gives you the keys and walks out of the car, and equally as 
frightening for the passengers in the back seat, too.

[Laughter.]

Mr. Cole. But anyway it's good to have you as a chaperon.

Mr. Andrews. It's like the movie Risky Business.

Mr. Cole. It is indeed.  I wish I had had that much fun as a young man. Anyway, I have a couple of 
simple, direct questions, axiomatic, obviously. The legislation is complex.  There's no such thing 
ever as the perfect bill.  

	Is there any reason to believe if we passed this legislation that it would make the situation 
worse rather than better?  At the end of the day, wouldn't you logically expect there to be more 
people insured, or at least have access to insurance through their employer than is the case today?

Ms. Combs. Yes, I think it will improve the situation.  And I think the best patient protection is 
access to health insurance.

Mr. Cole.  We've had some speculation as to what employers will or will not do. Obviously, you 
never know until you actually pass the legislation and they're confronted with it.  But isn't it fair to 
say we've had any number of associations of particular types of companies and industries, the U.S. 
Chamber of Commerce, the National Federation of Independent Business, that have come to us and 
asked, "If you can give us this ability, we really do believe our members, in significant numbers, 
will respond?"  And that's going to enable them to offer a benefit to their employees that they can't 
currently manage to do.

Ms. Combs. Yes.  There are over 80 associations representing small businesses, farmers, and 
others who strongly support this legislation.

Mr. Cole. And finally if we assume competition is a good thing, we assume we will have more 
companies and more associations offering insurance. As different companies begin to offer 
insurance more and more, won't that increase the pressure on those who don't in terms of 
competing for employees, and " keeping up with the Jones's", so to speak, in a competitive 
business environment?

Ms. Combs. Absolutely.  The big picture is, we're facing long-term worker shortages, and people 
are going to need to compete to get the kind of quality workers they need.  And health insurance is 
a very important part of the package.  So I think there will be intense pressure to be able to make 
this benefit available.

Mr. Cole. I have no further questions.

Chairman Johnson. Mr. Tierney?

Mr. Tierney. Thank you, Mr. Chairman.  

Ms. Combs, we meet again, over and over it seems.  This is like in Groundhog Day.

Ms. Combs. It gets better every time.

Mr. Tierney. If you say so.

[Laughter.]

Let me see if we can put this in some perspective.  Obviously, what's going on here is that 
everybody thinks that if we have a larger pool, that we're going to get a better deal on the 
insurance, right?

Ms. Combs. Yes.

Mr. Tierney. So what's to stop us from saying we can have a larger pool, and it just has to comply 
with the state regulations?  You know, choose the most severe regulation that you have, make that 
your threshold, and say, "There you go.  As long as your plan meets that threshold, then you can 
put this in place."

Ms. Combs. Well, I think the state benefit mandates do add substantially to the cost of health 
insurance, and that's one of the reasons that the bill allows the exemption.

Mr. Tierney. So the clear trade-off is that states that decide they need to protect their citizens are 
supposed to be kicked aside so that the price goes down.  That's the essential trade-off.  You lose 
rights and protections in return for a better price.

Ms. Combs. There remain in place, you know, central federal protections.

Mr. Tierney. But let me tell you, after just a quick review of this bill it will kick out 22 protections 
that the Commonwealth of Massachusetts has, right?  The group that insures access to independent 
review:  gone.  A number of regulations that would insure appropriate access to care:  gone.  A 
number that would insure fair insurance premiums to small groups: gone. And others that would 
insure marketing protections:  gone.	Others that would insure health plans cover important benefits 
that go beyond the federal requirements like mental health parity, alcoholism treatment, maternity 
benefits, mammography screening, in vitro fertilization, well-child care, prompt payment rules:  
gone. Other regulations that would insure appropriate oversight of insurers:  gone.  Others that 
would prevent failures and insure payment of claims and promote access to the uninsured on many 
COBRA rules are all gone.

	So that's what Massachusetts would be trading off if this bill went into effect.  You would at 
least agree with me on that.

Ms. Combs. If I may offer a caveat.  If the AHP were fully insured our reading of the law says that 
external review would continue to apply.  People would still have access to that.  The market 
conduct rules would continue to apply to the insurers. So in the insured AHP market, which we 
frankly think will be the larger share of this market, some of those protections will remain.  But you 
are right about the mandates.

Mr. Tierney. Most of those have gone by the by with this.  

All right.  So that's one problem we have.  And obviously, it's going to be hard for Members 
from a state that has more protections to justify voting for something that basically just lessens 
protections for the citizens in their state.

	The second part of this, we're talking about solvency protections.  Will you compare with 
me what an adverse state, if there is such a thing, has for solvency protections, and how it compares 
against the solvency protections that you have in this bill?

Ms. Combs. I'm not familiar with the specific solvency requirements of particular states.  But it's 
the same type, getting at the same issues.  In this case, an actuary determines that the reserves are 
adequate to pay the expected claims.  And then you have to have surplus on top of the reserves so 
that there's a cushion.

Mr. Tierney. Who would make the determination as to what the anticipated claims would be?

Ms. Combs. They have to get a qualified actuary who has to certify professionally that the reserves 
are adequate to meet the claims experience of the AHP.

Mr. Tierney. So they pick this person?

Ms. Combs. They pick the person, and that's filed with us and we oversee that.  So if we ran into a 
problem with one, we would be able to check the other plans that use the same actuary.

Mr. Tierney. I always have concerns with that.  It reminds me a little bit of Wall Street and having 
the accountants and the auditors watch each other back and forth.

	What I want to address in the limited time that we have is have you done a cost benefit 
analysis of what the cost is going to be to the Department of Labor to regulate and enforce this?

Ms. Combs. Well, we've been looking at what it would take to implement this.  We don't have 
dollar amounts or numbers of employees yet, because the legislation hasn't passed.  But when it 
does pass, we'll be allocating the resources that are necessary to do it.  

Mr. Tierney. Can I just interrupt you a second? Don't we generally get a push by the Majority on 
this side to always get a cost benefit analysis of things before they go through?  And this hasn't 
been requested of your Department or you yet on this bill?

Ms. Combs. No.

Mr. Tierney. Because back in 1997, as I said, it's like Groundhog Day all over again.  It's not the 
first time we've been around the track on a similar bill, and the Department of Labor estimated it 
would take them 300 years just to review each and every AHP once. I mean, the regulatory process 
of having a national program is obviously going to be enormous.  And I'm just curious as to what 
the cost is going to be on that, and how effective it's going to be.

	We have all the states doing the job.  I think most of them are doing a pretty good job.  And 
now we run the risk of having a regulation really get watered down by expanding it nationwide and 
taking the states out of the pictures.  You might want to address that.

Ms. Combs. Yes. You know, the previous Administration did not support this legislation, and they 
felt that they weren't willing or able to take it on.  I disagree. I think we are able.  I think they 
would have had the capability of doing it, and needed additional resources. We acknowledged we 
would need additional resources.

Mr. Tierney. Well, you know, give me a ballpark figure of additional resources, because I don't 
want to gloss over that.  

Ms. Combs. I don't have a ballpark yet.  But I recognize that this is an expansion of what we do 
right now when we're regulating self-insured employers and multi-employer plans in many ways.

Mr. Tierney. A huge expansion of what you're doing right now, right?

Ms. Combs. I don't know how many AHPs there are going to be.  I mean I don't know where the 
300 years came from.  Frankly, I don't know what they assumed.

Mr. Tierney. It came from testimony in 1997.

Mr. Cole. I think the gentleman is close to exhausting his time.

Mr. Tierney.  And I appreciate you allowing me to go over the time limit to get an answer from 
this witness.  Thank you,  I'm finished.  We have rules of etiquette around here, so we're going to 
finish on that.

Ms. Combs. I don't have a cost estimate.  We have not done cost estimates on how many 
employees we would have to hire.  Essentially, we would be hiring.  And the bill also gives us the 
ability to contract with the states to do some of this work.  We would explore that.  And as the 
legislation moves through the process, we'll gear up.

	You know, as you said, we've been talking about this for several years, so I don't think it 
would be prudent for us to be implementing legislation that hasn't been enacted yet. And that's why 
we have not requested specific resources yet.

Mr. Tierney. Thank you.  And I thank the Chairman for his usual courtesy.

Mr. Cole. Thank you.  Mr. Payne, do you have any questions?

Mr. Payne. No.  I'll reserve my questions for the next panel.  Thanks.

Mr. Cole. Okay.  

Thank you for your testimony, Madam Secretary.  

Ms. Combs. Thank you very much.

Mr. Cole.  I'd like to introduce the first witness on our second panel.  Ms. Phyllis Burlage is the 
President of an accounting firm, Burlage and Associates, PA, based in Millersville, MD.  She is 
testifying on behalf of the National Federation of Independent Business.

Our second witness is Ms. Alice Weiss, Director of Health Policy for the National 
Partnership for Women and Families, Washington, D.C.  

	Our last witness is Mr. Greg Scandlen.  Mr. Scandlen is Director of the Center for 
Consumer Driven Health Care at the Galen Institute in Arlington, VA.

	Please limit your statements, if you will, to five minutes.  Your entire written statement will 
appear in the record.  I remind the Members that the same five-minute rule for questioning 
witnesses applies to this panel after we receive their testimony.

	So Ms. Burlage, if you would like to begin, please do so.


STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, BURLAGE 
ASSOCIATES, PA, MILLERSVILLE, MD, TESTIFYING ON BEHALF OF 
THE NATIONAL FEDERATION OF INDEPENDENT BUSINESS

	Thank you.  Good afternoon, Mr. Chairman and members of the committee.  I want to thank 
you for inviting me today to talk about this important issue of affordable health insurance for small 
businesses.  I'm pleased to be here on behalf of the National Federation of Independent Business, 
representing 600,000 members who face a similar challenge.

	I own Burlage Associates.  My name is Phyllis Burlage.  We're a small accounting firm in 
Millersville, Maryland.  My employees and I work together to help individuals in small businesses 
comply with federal, state, and local tax regulations.  And I think you can say how important this 
bill is to me, because I should be tied to my desk right now with a ball and chain doing just that 
during tax season.  But it was very important for me to come here and talk to you today.

	Unlike other small women-owned businesses I know, I've been able to offer health 
insurance to my employees since the day I opened.  And thankfully, I've been able to provide a 
comprehensive benefit and pay 100 percent of that cost.  Each employee is eligible to participate 
after 30 days of working for me.  I initially pay for my employees only, and I usually use family 
and dependent coverage as a form of a raise.

	I administer my own plan, and every year in March, I hold my breath when my renewal 
comes in.  I've changed my policy four times in the last four to six years because of premium rates 
only.  I have very few choices because of the many mandates in the State of Maryland.

	Two weeks ago, I received my renewal in the mail. And my heart stopped, because my rate 
hike this year is 45 percent.  Overall, I've had a 226 percent increase since 1996. How can any 
business absorb increases of this magnitude?

	This year, our rates went from $226 to $265 per month for an individual, $476 to $557 for 
an employee and spouse, and skyrocketed to $750 a month to add a family, up from $650 only a 
year ago.  Should I raise my clients' fees to cover this increased health cost?  Will I lose clients to 
competitors if I do?  It's a vicious cycle for me and for many business owners.

	Each year, I search for a plan, because health insurance is important to my employees and 
me.  My employees and I work together to evaluate our options, including higher deductibles and 
co-pays.  But we know that in spite of our best efforts, the cost will increase every year, because 
our rates are based on the average age of our small group.

	Since my group consists of three people, and we get a year older every year, there's no pool 
to offset that fact. At this rate, by the time I qualify for Medicare in 14 years, my premium will be 
$3,486 for me per month, and if I still have my group, $10,141 for my employees and me.

	While I continue to struggle to provide affordable coverage, some of the big companies 
have announced record profits in the last few quarters.  As an entrepreneur, I'm in favor of profits.  
But looking at double-digit annual increases, I believe the lack of competition in the small group 
market is making insurance company executives richer at small businesses' expense.

	As many of you may know, recently in my home state of Maryland, Well Point Health 
Network, Incorporated, the biggest publicly traded Blue Cross and Blue Shield plan, attempted to 
purchase the non-profit Care First Blue Cross/Blue Shield Company.  Fortunately, Commissioner 
Larson denied the conversion, citing basically the initial $119.7 million bonus plan for the Blues' 
executives. And despite state oversight, these insurance companies had found ways to cherry pick 
the healthiest individuals in order to increase their profitability, looking forward to this potential 
buyout.

	The subject of health insurance comes up at every professional meeting I attend, both with 
other women-owned business owners and with my clients.  We are afraid that we will not be able 
to cover our employees and ourselves, and consequently, we will not be able to attract qualified 
employees and compete in the market.

	We need to be able to spread this risk out over more than our own employee group.  The 
small business community is struggling each year to afford the cost of increasing premiums.  It is 
for this reason that I support H.R. 660, the Small Business Health Fairness Act of 2003.  AHPs will 
allow small business owners to band together across state lines to purchase health insurance as part 
of a larger group, insuring greater bargaining power, lower administrative costs, and freedom from 
the cost of complying with 50 different sets of state mandates.

	AHPs will level the playing field and give small employers the same privileges as their 
counterparts in labor and big business.  In addition, AHPs will introduce into the marketplace 
competition and diversity that is needed to make health insurance premiums more affordable.  
Without the ability to shop for more affordable options, we are left with the choice to shift costs to 
our employees, or drop coverage. And if we drop coverage, we're just adding to the number of 
uninsured.  Association Health Plans would help to end this nightmare.

	Like most small business owners, I talk to a lot of people every day.  To be competitive on 
Main Street, you have to keep your ear to the ground.  I know from talking to other accountants 
that they and their clients need AHPs.  They are a good, common sense solution to controlling the 
cost of quality health care.

Mr. Chairman, thank you.

WRITTEN STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, BURLAGE 
ASSOCIATES, PA, MILLERSVILLE, MD, TESTIFYING ON BEHALF OF THE 
NATIONAL FEDERATION OF INDEPENDENT BUSINESS - SEE APPENDIX C


Chairman Johnson. Thank you for your testimony.

Ms. Weiss, you may begin your testimony now.

STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, BURLAGE 
ASSOCIATES, PA, MILLERSVILLE, MD, TESTIFYING ON BEHALF OF 
THE NATIONAL FEDERATION OF INDEPENDENT BUSINESS

Good afternoon, Chairman Johnson, Ranking Member Andrews, and other Members of the 
Subcommittee. Thank you for the opportunity to testify today.

	My name is Alice Weiss, and I'm the Director of Health Policy for the National Partnership 
for Women and Families, a non-profit, non-partisan advocacy organization that promotes work 
place fairness, policies that balance work and family, and access to quality health care for women 
and families.

	As my written testimony discusses in greater detail, the National Partnership supports the 
efforts of this Subcommittee to develop solutions to the problems small businesses face in 
obtaining affordable health insurance. Today, I will offer the partnership's principles for reform, 
and explain how H.R. 660 falls short of these principles, and may ultimately hurt, not help, the 
uninsured.

	Today's small business crisis has significant impact on women.  Women are 
disproportionately likely to be either owners of or workers for very small firms.  And as the 
National Partnership survey research shows, it is most often women that pay the price when health 
coverage is unavailable.

	In the face of this crisis, it is critically important for Congress to act.  We have developed 
four principles to evaluate proposals to improve health coverage access for small businesses.

	First, proposals must cover the uninsured.  With 41 million individuals now uninsured, 
proposals must provide new coverage, not just shift the already insured from one coverage to 
another.

	Second, proposals must also provide small businesses and their low-income workers access 
to affordable and comprehensive coverage.

	Third, these proposals can't ignore those who are most in need.  One in four uninsured 
Americans has at least one chronic condition that puts them at greater need for coverage and at risk 
for discrimination.  Legislation must help those in poor health, not just the healthy.

	Finally, proposals must preserve strong consumer protections.  All 50 states and the District 
of Columbia have passed tough consumer protections to stabilize the small group health insurance 
market.  Strong protections are needed to lessen the likelihood of a new trend of fraud and abuse.

	H.R. 660 offers Association Health Plans as a solution, but H.R. 660 is not the right policy 
option.  It suffers from three basic problems.

	First, despite proponents' claims to the contrary, H.R. 660 still allows AHPs to cherry pick 
the healthy and leave the less healthy behind.

	Second, H.R. 660 preempts critical state oversight, denying consumers the protections they 
need to insure that AHPs will make good on their coverage promises.

	Third, AHPs will be subject to nominal and inadequate federal standards and oversight 
under the Department of Labor, with no meaningful resources provided to DOL to help it undertake 
these new responsibilities.

	H.R. 660 also fails to meet every one of the principles I have outlined.  It simply offers no 
solution to the problem of the uninsured.  According to CBO, less than 1 percent of the 41 million 
uninsured today will get new coverage, and AHPs would drive up costs for four out of five small 
business owners and their workers, more than 20 million individuals.

	H.R. 660 also fails to insure access to affordable and comprehensive coverage.  Because 
nothing in H.R. 660 prevents AHPs from saving money by paring down benefits and targeting the 
healthy, the cost of coverage for those remaining in the state-regulative market will go up, even as 
coverage options decline.

	Under H.R. 660, healthy people win, while those most in need will lose.  AHPs would leave 
the elderly, disabled, and chronically ill behind without help.  And because women are more likely 
to use health care services and need expensive reproductive health benefits, women would also lose 
with AHPs.

	H.R. 660 also undermines strong consumer protections.  Virtually all state law protections, 
including patients' rights, rating rules, fraud and solvency, and direct enforcement protections, are 
eliminated for AHPs, and replaced with minimal federal oversight and weak solvency standards. 
For example, H.R. 660 would allow the AHP's own actuary to certify its solvency, a practice that 
would make even Enron executives blush.  And by loosening the reins of oversight, the AHP 
legislation could increase the risk of fraud already rampant and on the rise.

	Last year alone, 55,000 workers and their families were left uninsured due to association 
plan scams, amounting to $65 million in unpaid medical claims, and millions more in premiums 
paid for coverage that consumers never got.  Although many small business owners and their 
workers are uninsured now, under H.R. 660, they could be paying for the privilege.

	While we do not oppose the concept of AHPs and could support a proposal that met our 
criteria, H.R. 660 as now drafted fails to meet these criteria.  And there are other ways to address 
the current small business health care crisis. Here are three examples.

	One, small employer tax credits and new state-regulated purchasing pools could give small 
employers a new tax incentive to offer coverage, and would encourage states to create new pooling 
arrangements without undermining existing protections.

	Two, allowing small employers to buy into FEHBP and state employee pools would give 
small employers new options to reap the benefits of better choice and lower cost that pooling on a 
large scale can provide, also without threatening consumer protections.

	Three, building on existing public programs like Medicare, Medicaid, SCHIP would 
harness the cost savings reaped from public programs to target assistance to those most in need:  
low-wage, older, and less healthy workers.

	The health insurance problems facing small employers are a major concern for women and 
families.  However, we urge you to take a cautious approach to legislative action.  H.R. 660 will 
likely do more harm than good for small employers and their workers alike without addressing the 
problem of the uninsured.

	For H.R. 660 to work, it would have to provide meaningful assistance for the uninsured, 
prohibit wrongful discrimination and cherry picking, and create an effective oversight and 
enforcement mechanism, including strong solvency standards and sufficient resources to support 
DOL oversight. H.R. 660 as now drafted does not address these concerns.  Significant changes are 
needed to address these real and critical flaws.

	Thank you for your consideration of this important issue and for the opportunity to testify, 
and I'm happy to answer any questions.


WRITTEN STATEMENT OF PHYLLIS M. BURLAGE, PRESIDENT, BURLAGE 
ASSOCIATES, PA, MILLERSVILLE, MD, TESTIFYING ON BEHALF OF THE 
NATIONAL FEDERATION OF INDEPENDENT BUSINESS - SEE APPENDIX D 


Chairman Johnson. Thank you.  I appreciate your testimony.
	
Mr. Scandlen, you can begin your testimony now.


STATEMENT OF GREG SCANDLEN, DIRECTOR, CENTER FOR 
CONSUMER DRIVEN HEALTH CARE, THE GALEN INSTITUTE, 
ALEXANDRIA, VA

	Thank you.  Mr. Andrews has cautioned the proponents of this bill not to overstate their 
case, and I think that is an extremely welcome comment.  In fact, too often in the political sphere, 
both opponents and proponents overstate their cases, and I think that's happening with this issue.

	It seems to me that Association Health Plans are a considerable contribution to solving 
some of the problems of the small group market.  They're certainly not going to solve all the 
problems.  They're not going to solve the problems of the uninsured.  But they're a step in the right 
direction, and I think it can be a major component to a comprehensive approach to solving our 
health care problems.

	Anyone who thinks that the small group market back in their home state in their home 
district is working just fine should probably vote against this bill.  But I'm here to tell you that the 
mandates, the excessive regulations, the rating instructions, the level of competition, and the costs 
are going through the roof.  If all of that is producing happy companies and happy employers, then 
nothing should be changed.

	But, in fact, the current market is a disaster. Even at this moment, in your home district, 
there's probably an employer who is notifying his employees that he can no longer afford to carry 
the coverage.  It's a tragedy out there.  And frankly, I believe it is a consequence primarily of 
excessively zealous state legislators who have passed outrageous legislation.

	I was very closely involved, with the NAIC twelve or more years ago when they were 
starting on their so-called campaign to reform the small group market.  I predicted at the time that 
their reforms would result in chaos in the small group market.  And I think time has borne me out. 
That is exactly what is happening today.

	As I say, AHPs are only part of the solution.  We also need to expand medical savings 
accounts.  We need tax credits.  We need malpractice reform.  We need new ideas like the health 
reimbursement arrangements that the IRS has just recently approved.  We need more competition 
and more innovation in the small group, and every other insurance market in the United States.  I 
think AHPs will contribute to the level of competition in a market where there are virtual monopoly 
conditions today.

	The AMA did a very fascinating report on market concentration in health insurance.  And in 
very many markets, there are two or three dominant players that control 70 percent or more of the 
market.  That is a large part of the reason there's such a problem.  These dominant carriers have a 
take-it-or-leave-it attitude.  If you don't want what they buy, there's no place else to go.  AHPs will 
give small employers an alternative and an option.  It will also open up the market to ideas like 
medical savings accounts, which are also not the solution to all of our woes, but another 
contributor.

	I live in Maryland.  I have been a small employer. And I tell you, in Maryland, small 
employers cannot get medical savings accounts, because the Health Care Access Commission has 
added so many bells and whistles to them that they're impractical in that state.

	In Connecticut, there is a mandate that requires no more than a $50 deductible for home 
health services.  So in Connecticut, no one is allowed to have a medical savings account, even 
though the United States Congress passed the legislation about seven years ago.  So there are huge 
problems out there.

	Some of the criticisms that have been leveled, I think, are simply illegitimate.  This notion 
that AHPs will only take the good risks and leave the bad behind, I think, is nonsense.  In Senate 
testimony, Len Nichols testified that in Arkansas, they had exactly the opposite experience when 
the state formed a purchasing pool for small employers in that state.  And they couldn't find an 
insurance company to take it, because the insurance companies all thought that the worst risks 
would join the association, not the best risks. There is no reason to think in a guaranteed issue 
environment that an Association Health Plan would only end up with the very best risks.

	Another argument is that shady operators will come in and take the money and flee to Costa 
Rica, as happened with MEWAs.  Now, I guess I'm an optimist, but I like to think that human 
beings learn from experience.  And I think this bill builds in quite a number of safeguards to 
prevent that from happening this time around.  MEWAs certainly were a disaster.  They were 
unregulated by either of the states or the Federal Government, and that shouldn't be allowed to 
happen.

	I think there are some legitimate criticisms of the legislation.  Insurers will tell you if 
regulatory relief is needed, give us the regulatory relief, and we'll fix the problem.  I think that's 
right.  I'm not quite sure how to get there.  I don't think Association Health Plans are the only way 
of doing this, but I think it's the only one way on the table right now.

	Thank you, sir.


WRITTEN STATEMENT OF GREG SCANDLEN, DIRECTOR, CENTER FOR 
CONSUMER DRIVEN HEALTH CARE, THE GALEN INSTITUTE, 
ALEXANDRIA, VA - SEE APPENDIX E


Chairman Johnson. Thank you.  We appreciate the testimony of all three of you.  

Ms. Weiss, we answered most of those questions that you brought up earlier with Assistant 
Secretary Combs.  I think that this is just another plan on the table from a smorgasbord of plans out 
there, all of which cost too much.  And how we get the cost of health care down, I don't know.

	But Ms. Burlage, it seems like we've got reports, papers, arguments, speeches, whatever.  
From your standpoint, does it make sense for us to pass legislation that could reduce some costs 
and cover more workers and families, whether it's 300,000 or if it's 8 million?

Ms. Burlage. Mr. Chairman, when my clients come to me and ask me about buying a new 
computer system, they want it to do everything that it can possibly do, including shine their shoes 
and digest their dinner.  I tell them to make a list.  And if they can find a system that will solve 80 
percent of their problems, jump on it.

	And that's the way I feel about Association Health Plans.  They're a step in the right 
direction.  They're going to help us.  We need to take that step.

Chairman Johnson. Thank you.  I appreciate that comment.  

Mr. Kline, do you wish to question?

Mr. Kline. Yes.  Thank you, Mr. Chairman.  

Mr. Scandlen, let me say how much I appreciate your comment that the claims on both 
sides of this argument are extreme, which is probably too soft a word.  It's amazing how one side is 
saying "up" and the other "down", and one "black" and the other "white" and so forth.  And I very 
much appreciate your comment.

	I have just a couple of very quick questions, because there are so many.  In your judgment, 
would AHPs actually reduce the administrative burden of small employers?

Mr. Scandlen. I think they might somewhat.  I think more importantly, they would allow small 
employers to access professional benefits managers like large employers currently can.  A 
30-person print shop has a boss that really doesn't know anything about health care, doesn't really 
care anything about health care.  If he could tap into the resources of a trade association to provide 
those kind of professional services, I think that would be a big help to him.  Whether administrative 
costs are actually lowered very much, I'm not so sure.  I think the bigger problem is the cost of the 
regulations.

Mr. Kline. Okay, thank you.  And the issue here in large part is that we have state regulations, and 
federal regulations would be over-arching and change some of those. Is there any benefit to 
consistent nationwide regulation over the state regulations?

Mr. Scandlen. That is a very tough issue that I think is going to need to be addressed eventually.  
Obviously, the insurance market is already fragmented.  You have larger employers that are self-
insured that are ERISA protected and completely free of any state regulations.  You even have 
small employers down to say 100 or so that are self-insured and free.  Then you have mid-sized 
employers who are fully insured and not free of those regulations.  Then you have different 
regulations on the state level for each of those Blue Cross plans, commercial carriers, individual 
market, small group market, and large group market.  We already have a horribly fractured 
insurance oversight system that I think needs to have a sober look taken at it.  And perhaps that 
implies federal oversight.  I'm not sure.  But what we have today is simply not working.

Mr. Kline. Thank you. 

Ms. Burlage, I'm just still stunned that you have experienced a 226 percent increase in your 
premium since 1996.

Ms. Burlage. Yes, sir.

Mr. Kline. How in the world did you handle that? What did you do to offset that expense?

Ms. Burlage. Well, quite frankly, when I hire somebody, the cost of the insurance is built into the 
compensation package that I offer.  So they may wind up with an hourly rate that might be 
considered to be below par simply because I'm going to be covering them with health insurance.  
And my employees know and understand that.

	I also, as I have stated in my written testimony, tend to pay my employees with a lot of 
flexibility. I have a woman who raised her child up through the time she entered kindergarten by 
bringing the child into the office. So that kind of flexibility, and them knowing that the health 
insurance is literally a part of their hourly rate, has helped me.  But it's reaching the point right now 
where I honestly do not know what I'm going to do in the coming years.

Mr. Kline. So in other words, you're driving down the salary or the wages that you can pay, in 
effect.

Ms. Burlage. Effectively.  And quite honestly, because I do not have to pay payroll taxes on health 
insurance benefits, if I increase my employees' wage base through health insurance, it lowers my 
overhead as far as payroll taxes go.

Mr. Kline. Thank you very much.  I yield back, Mr. Chairman.

Chairman Johnson. Thank you.  

Mr. Andrews.  I apologize for skipping over you.

Mr. Andrews. That's all right.  I got so much time the last time, I guess that was my punishment. 
I'd like to thank each of the three witnesses for excellent and well-thought-out testimony.  Thank 
you.

Ms. Weiss, I understand you may have a little person to start bringing to the office soon.  I 
congratulate you on that great news.

Ms. Weiss. Thank you.

Mr. Andrews. I wanted to ask you which of your three proposals to increase health care coverage 
do you think would be most efficient.  Would it be opening up the public programs, or expanding 
SCHIP, or would it be the pooling and the tax credit?  If we could do one of those things, what 
would you recommend to us?

Ms. Weiss. I think if you want to look at the broader the issue of the small business and what 
they're facing, I think you would probably want to encourage them to offer the pooling 
arrangements and the tax credits as an option targeted at the small employers, and then provide 
subsidies to the states.

Mr. Andrews. Do you think that we should propose such a tax credit for all employers, including 
those who presently insure their employees, or only those who do not insure their employees, 
which is a very tough question?

Ms. Weiss. Right.  I think that's an important issue.  Unfortunately, as you already know, the way 
the current system is set up, all employers have a tax incentive to offer coverage.  The idea behind 
offering small employers an additional tax credit or incentive is intended to try to get over the 
barrier, that I think was being referred to in the last question-and-answer period, about what the 
small employers are going to face in terms of whether or not they would be willing to actually take 
up coverage and get over the hump of affordability.

Mr. Andrews. Thank you.  

Ms. Burlage, if I lived in Maryland, I'd hire you to do my taxes.  You obviously seem to be 
very client-oriented.

Ms. Burlage. Thank you very much.

Mr. Andrews. You remind me of the accountant that does my family's taxes.  They're also very 
personable and a very small firm.  Since I'm going to publish my tax return on the Internet, which 
all of us non-profits do in these days of full disclosure, I want to make sure it's right.  

	I want to ask you your opinion of this idea.  What if we said that we took a collection of 
consumer protections like you've heard about here today, coverage of mammograms and colon 
cancer screenings and the rest, put them into one national standard, and said to the insurance 
industry, "If you meet this national standard, you can sell insurance in any state in the union."
So if a carrier in Maryland or Ohio or California met strong consumer protection standards, they 
could sell their policy anywhere in the union.  What do you think of that idea?

Ms. Burlage. Well, I know that because of the number of mandates the State of Maryland has, 
many insurance companies will not even come into the State of Maryland.  If I look at the AARP 
magazine that comes out, and they talk about various insurance companies, or I see something on 
TV about call in about insurance, we call in, and they'll reply, "Oh, you're in Maryland?  We're not 
coming there."

	So I think if something could be done that would help to even out those bumps in the road 
as far as individual state mandates go, it would be a step in the right direction.

Mr. Andrews. Thank you.  

Mr. Scandlen, I appreciate the very last paragraph of your testimony about not overselling 
the effects of this legislation.  And by the way, I don't believe there would be any positive effects 
either.  I just think that in a marketplace where about 80 percent of the working uninsured people 
make a very low wage in industries that have a very low margin that even offering a very deep 
discount to the employer is not going to make a lot of difference.

	What would make a difference?  You make reference to this. What in combination with 
some of the other proposals could make a significant improvement?

	How would you reach universal coverage of people in this economy?

Mr. Scandlen. Well, I'm afraid that I would disagree with the premise, first of all.  I, frankly, don't 
think we will ever get universal coverage.

Mr. Andrews. So how would you increase it to near universal?

Mr. Scandlen. Right.  I think refundable individual tax credits would go a long way.  As I cited in 
my example of a print shop with 30 employees, it has never made sense to me to rely on the owner 
of that print shop to be a provider of health insurance benefits.

Mr. Andrews. I'm sorry.  When you say "refundable," you mean that if an individual doesn't make 
enough money to pay federal income taxes, they would still get a credit anyway, right?

Mr. Scandlen. Yes.  And I think it should be equivalent to the subsidy that's currently provided to 
employer-sponsored benefits through the exclusion, which is about 35 to 40 percent. I think that 
would just be a starting place.

Mr. Andrews. Would you offer this to all uninsured people, or all people?

Mr. Scandlen. I would offer it to all people that are not getting coverage through their employer.

Mr. Andrews. Do you think that it would lead to a hemorrhaging where employers who do offer 
insurance would just stop doing it, because the public would now subsidize it?

Mr. Scandlen. I think many employers might very well do that.  But I think they would continue to 
make a contribution towards that employee's health insurance premium, as they do now.  And I 
think that's more appropriate, with the exception of large companies.  The General Motors and GE's 
and those sorts of companies do a wonderful job of managing benefits programs.  But the small to 
mid-size guys simply don't.  And I think the public would be better served if they simply made a 
financial contribution to the cost of coverage for their employees.

Mr. Andrews. I would be interested, if you could supplement the record later with your estimate of 
how much that would cost the federal treasury.

	I thank each of the three witnesses.  Thank you.

(NOTE:  This item was not submitted prior to the official printing of the hearing transcript.  
However, the item will be maintained upon its submission and available for inspection in the 
Majority office of the Committee on Education and the Workforce.)

Chairman Johnson. Mr. Tierney, the gentleman from Massachusetts.

Mr. Tierney. Thank you, Mr. Chairman. 

Mr. Scandlen, most of the savings that we think might be generated from the AHPs under 
this bill, would they come from the fact that there would be a release from the state regulatory 
process?

Mr. Scandlen. Yes, I believe so, sir.  Although I'm not quite clear on some of the provisions of the 
bill. For instance, it seems to me that it's deferring to the states on rating restrictions, on community 
rating and that sort of thing.  And if the bill is doing that, then I think a large chunk of your savings 
would be lost.

Mr. Tierney. So the bill would be even less effective if that's what it does.

Mr. Scandlen. I believe so, sir.

Mr. Tierney. Now, the Congressional Budget Office looked at this bill, and they thought at best, it 
would save about 13 percent over the traditional premiums.  So it indicates to me that maybe that's 
the case.  I'll check that myself also.

Ms. Weiss, do you agree that most of the savings from any proposal like this are intended 
the come from the state regulatory process?

Ms. Weiss. Actually, I think the CBO report that you're referring to found that there were actually 
two sources of savings.  One was the fact that they'd be out from under the state benefit 
requirements, and the second was the opportunity that the associations would have to design their 
own benefits package, and therefore, draw in healthy risk.

Mr. Tierney. So cherry picking.

Ms. Weiss. Cherry picking.

Mr. Tierney. Okay, thank you.  Now, given that, Ms. Burlage,  I was in a business pretty much 
like yours, only probably smaller, before I got to Congress.  I had the same problems all the time.  
You get your premium notices, and you want to open the window and jump, and hope you're on the 
first floor.

Ms. Burlage.  Yes.

Mr. Tierney. Just as a protest.  You didn't really want to hurt yourself, right?  But let me tell you,

[Laughter.]

if we went to a system like this, and, in fact, the reason to have that money was to get out from 
under regulation, I assume that being the good employer that you are, you still want to get a good 
policy for your employees.

Ms. Burlage. Of course.

Mr. Tierney. So would it affect your decision if you were going to try to get a policy where 
consumers can no longer have an independent external review of any claim that's denied?  Is that 
going to impact your decision whether or not to go to that type of a policy?

Ms. Burlage. I have to tell you that, quite frankly, I guess it's like somebody who's hungry.  If you 
haven't had a meal for a while, you're not really concerned what you eat.  You just want to eat.  
And right now, my employees are much more concerned with the fact that they will have 
insurance.  

Mr. Tierney. Well, you're covering them now, aren't you?

Ms. Burlage. I'm covered now.  And they want to make sure that they stay covered.

Mr. Tierney. Right.  So I guess my question to you is if you're now looking at a policy, and one of 
the things that it does not provide is an independent external review of claims that are denied, is 
that one thing you would factor in when determining whether or not you wanted to go in that 
direction?

Ms. Burlage. Probably not.

Mr. Tierney. You don't care.

Ms. Burlage. I probably would be more concerned with the premium and the co-pays.

Mr. Tierney. But not what it covers?

Ms. Burlage. Yes, what it covers.  But are you talking about when I go to the doctor and I have my 
annual mammogram, or my well woman or my child coverage, is that covered?

Mr. Tierney. Let me ask you that, then.  If you have a policy that doesn't cover mammography 
screening, would that be an impact on your decision?

Ms. Burlage. Yes.

Mr. Tierney. And if you had one that didn't cover well child care, would that be an impact on your 
decision?

Mr. Tierney. And if it didn't cover maternity benefits, would that impact your decision?

Ms. Burlage. Probably not.

Mr. Tierney. You wouldn't care if your policy covered maternity.

Ms. Burlage. I don't have anybody in my office that that would impact at this point.

Mr. Tierney. Well, suppose you did by the time you had to make this decision?  Suppose you had 
Ms. Weiss with you?

[Laughter.]

Assuming you could afford the payroll of Ms. Weiss.

Ms. Burlage. Assume I could afford the payroll. Then at that point, yes.  I want to be able to offer 
my employees the coverage that they need, and that's the question that you're asking me.

Mr. Tierney. It is.  And I guess my point is, if you haven't guessed it already, is that a lot of these 
states have gone through this process and tried to determine what their citizens want in a policy, 
what protections they want, and then have imposed those regulations.  And now we're sort of 
undoing that and going backward.  And I think what I heard from you, for example, at least in 
Massachusetts, some of the things that we have in our legislation that would be protected would 
make a difference to you if those were gone out the window now.

Ms. Burlage. It might.  But I also know that when I speak to my employees about coverage, and 
when I speak to other people about what they want, lots of people have a list of what they want.  
But a lot of times they back down when it comes down to what they need and what they will deal 
with on a day-to-day basis.  A lot of these items can be negotiable.

Mr. Tierney. Well, a young married couple might want to know that there are maternity benefits.

Ms. Burlage. But they might not be so willing to pay the extra for in vitro if they know what that's 
going to do to the increase in their premiums.

Mr. Tierney. Right.  But they also want to have the mammography screening.  I guess my point is 
that the states have gone through this process, and now on the federal level, we're just going to 
wipe it out, not just the in vitro, but also some of the other things that you would want or whatever.  
So it puts some complications in there.

Ms. Burlage. But I think that there is room for negotiation, and that it needs to be discussed.

Mr. Tierney. Well, I wish that the bill provided for that.  I yield back the balance of my time.

Chairman Johnson. I think the gentleman's time is expired.

Mr. Tierney. You know, it's interesting.  

Chairman Johnson. That's the way it is with the first-story man.

Mr. Tierney. I saw your incredible questioning at the beginning or statements at the beginning of 
the questioning period, and I thought you were using your own time until I realized the light wasn't 
on, and I thought maybe I'd steal some of that time.  Thanks.

Chairman Johnson. It was Mr. Andrews' time you were stealing there.  

Mr. Payne, do you wish to question?  And let me advise the Members and the witnesses that 
we're about to get a vote called on the floor, so we'll hurry this through. Mr. Payne.

Mr. Payne. Okay.  I thought I gave my time up on the last round, but I guess I better rest on this 
one too.  Let me just say that the fact that this federal plan would override state plans, as Mr. 
Tierney mentioned, what happened in Massachusetts would certainly usurp a lot of the benefits that 
New Jersey consumers have.  And so I don't know why it would be beneficial for us in New Jersey.  
I don't know what states it benefits.  

Maybe Mr. Scandlen, since the Assistant Secretary is not here, you can answer some of 
these questions. First of all, it appears to me that there is the problem with health care, as Ms. 
Burlage was saying, we can pick and choose, which really makes a lot of sense for her firm.  I think 
one of the problems with the health insurance in general is that it's a lot different from insurance in 
general.

	They tell me that the concept of insurance is that you get large, large numbers of people, 
and you have some kind of actuarial table to show that so many people are going to die, for 
example, for life insurance.  But everybody's kind of thrown into those big numbers.

	It seems like health insurance can almost never work because of the question of tailoring 
the policy to an individual's work place.  Now, that makes sense for the individual in the work 
place.  But to me, it destroys the whole concept of what insurance in general is supposed to be 
about; large numbers where out of every 10,000 people, four people are going to get run over by a 
bus.  So you know that.

	But if you kind of skew out and take people that are not going to have children, or maybe 
all men, so you don't carry maternity, I'm trying to figure out what the question is.  But I have a 
problem with the sort of tailor-made cherry picking, and that's what MEWAs and all those are.  I 
guess my question is do you think that we could ever have a system that's going to be affordable 
because of the manner in which insurance is done by small business in particular?

Mr. Scandlen. I understand exactly what you're saying, sir, and I appreciate the question.  I think 
it's important to make a distinction between insurance and prepaid health care, and payment for 
ordinary health care needs.  A lot of the things that have been mandated around the country are 
actually fairly low-cost services.  Mammography screening doesn't cost very much.  And that's 
exactly the sort of thing that should start us rethinking the way we finance this stuff. It would be 
appropriate for medical savings accounts or a health reimbursement arrangement, a pool of cash 
from which people can pay directly, rather than processing it through an insurance mechanism.  It's 
a very expensive way of paying for a service like that, putting it through an insurance company.

	At the same time, your idea of the massive insurance pool is absolutely right also.  And 
that's what you need the high deductible, or the backup, or the stop-loss policy for, which is much 
more of a traditional sort of insurance that is there for catastrophic needs. Florence Lorel, the 
insurance commissioner here in the District, did some very nice articles making that distinction, 
and I could send them to you, if you'd be interested.

Mr. Payne. Okay.  Thank you very much.  

You know what?  Since we're going to have a vote in a minute, let me tell you what I think 
should happen.  I believe that the Federal Government should simply make a certain amount of 
money available to offset the cost of health insurance.  I mean, to me it's almost like an entitlement.  
You said that you don't think that there would ever be universal benefit care, universal coverage, 
and it doesn't seem like it's going that way.

	But to be truthful, it seems to me that everyone should be entitled to health care.  I just think 
that it's a basic entitlement.  And the way the costs keep going up, so many people uninsured, even 
working poor, cannot afford it.

	I would just hope that one day we might decide that the cost of this is so high that the same 
way that we provide defense and other things that are very essential to our country.  For example, 
our defense budget is going to be $400 billion this year, not counting Iraq.  It's up to another $100 
billion then.

	Now, if we can do that yearly and provide for our common defense, it seems we could do 
the same to promote the general welfare as I learned in school, not to have the government simply 
say it costs too much.  We want everybody to be healthy.  They deserve it.  And we should just 
have a line item for health just like we have for defense. But that's just my theory on it.  

I'd like to yield back the balance of my time, Mr. Chairman.

Chairman Johnson. Thank you, Mr. Payne.  We got through without the buzzer going off.  That's 
marvelous.

	I want to thank you all so much for your testimony. It has been very enlightening, and as we 
can see there is no agreement on either side.  So we've got a long way to go.  And frankly, I don't 
think any of us have the answer for how to deliver health care to the population and get more 
people insured, but we're going to try every way we can.  So I thank you again for your time and 
testimony. 

I don't know if you knew it or not, but Kristin Fitzgerald, this young lady behind us who is 
our aide, has been on leave for three months after having a baby.  And we'd like to welcome her 
back to the Committee.

	Thank you so much for your testimony.  The Committee stands adjourned.


Whereupon, at 2:48 p.m., the Subcommittee was adjourned.














APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN SAM 
JOHNSON, SUBCOMMITTEE ON EMPLOYER-EMPLOYEE RELATIONS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE 











APPENDIX B - WRITTEN STATEMENT OF THE HONORABLE ANN L. 
COMBS, ASSISTANT SECRETARY, EMPLOYEE BENEFITS SECURITY 
ADMINISTRATION, U.S. DEPARTMENT OF LABOR, WASHINGTON, D.C. 











APPENDIX C - WRITTEN STATEMENT OF PHYLLIS M. BURLAGE, 
PRESIDENT, BURLAGE ASSOCIATES, PA, MILLERSVILLE, MD, 
TESTIFYING ON BEHALF OF THE NATIONAL FEDERATION OF 
INDEPENDENT BUSINESS 











APPENDIX D - WRITTEN STATEMENT OF PHYLLIS M. BURLAGE, 
PRESIDENT, BURLAGE ASSOCIATES, PA, MILLERSVILLE, MD, 
TESTIFYING ON BEHALF OF THE NATIONAL FEDERATION OF 
INDEPENDENT BUSINESS 











APPENDIX E - WRITTEN STATEMENT OF GREG SCANDLEN, 
DIRECTOR, CENTER FOR CONSUMER DRIVEN HEALTH CARE, THE 
GALEN INSTITUTE, ALEXANDRIA, VA 











APPENDIX F - SUBMITTED FOR THE RECORD, STATEMENT OF THE 
HEARTH, PATIO & BARBECUE ASSOCIATION, ARLINGTON, VA











APPENDIX G - SUBMITTED FOR THE RECORD, STATEMENT OF 
DONALD L. WESTERFIELD, Ph.D., PROFESSOR, WEBSTER 
UNIVERSITY, SENIOR FELLOW, NATIONAL CENTER FOR POLICY 
ANALYSIS











APPENDIX H - SUBMITTED FOR THE RECORD, STATEMENT OF THE 
AMERICAN FARM BUREAU FEDERATION











APPENDIX I - SUBMITTED FOR THE RECORD, STATEMENT OF THE 
ASSOCIATION HEALTHCARE COALITION, WASHINGTON, D.C.











APPENDIX J - SUBMITTED FOR THE RECORD, STATEMENT OF 
COUNCIL OF SMALLER ENTERPRISES, CLEVELAND, OH











APPENDIX K - SUBMITTED FOR THE RECORD, STATEMENT OF THE 
SMALL BUSINESS ASSOCIATION OF MICHIGAN, LANSING, MI











APPENDIX L - SUBMITTED FOR THE RECORD, STATEMENT OF THE 
DETROIT REGIONAL CHAMBER











APPENDIX M - SUBMITTED FOR THE RECORD, LETTER TO RANKING 
MEMBER ROBERT ANDREWS, FROM DONALD A. YOUNG, M.D., 
PRESIDENT, HEALTH INSURANCE ASSOCIATION OF AMERICA (HIAA), 
MARCH 13, 2003











APPENDIX N - SUBMITTED FOR THE RECORD, STATEMENT OF 
NATIONAL ASSOCIATION OF INSURANCE COMMISSIONERS











APPENDIX O - SUBMITTED FOR THE RECORD, STATEMENT OF 
RONALD F. POLLACK, EXECUTIVE DIRECTOR, FAMILIES USA, 
WASHINGTON, D.C.











 APPENDIX P - SUBMITTED FOR THE RECORD, LETTER TO 
CHAIRMAN JOHN A. BOEHNER AND RANKING MEMBER GEORGE 
MILLER, FROM MIKE PICKENS, NATIONAL ASSOCIATION OF 
INSURANCE COMMISSIONERS (NAIC) PRESIDENT, KANSAS CITY, MO











APPENDIX Q - SUBMITTED FOR THE RECORD, STATEMENT OF 
NATIONAL SMALL BUSINESS UNITED











APPENDIX R - SUBMITTED FOR THE RECORD, LETTER TO SPEAKER 
OF THE HOUSE, J. DENNIS HASTERT AND SENATE MAJORITY 
LEADER, BILL FRIST, M.D., FROM MENTAL HEALTH LIASON GROUP, 
C/O PETER NEWBOULD, AMERICAN PSYCHOLOGICAL ASSOCIATION 
PRACTICE ORGANIZATION, WASHINGTON, D.C.











APPENDIX S - SUBMITTED FOR THE RECORD, NEWS RELEASE, 
"AHPs WILL INCREASE HEALTHCARE COSTS FOR CONSUMERS," 
BLUECROSS BLUESHIELD ASSOCIATION, CHICAGO, IL


206


Table of Indexes



Chairman Johnson, 1, 5, 8, 9, 10, 12, 13, 14, 16, 17, 19, 25, 28, 30, 31, 34, 37, 39
Mr. Andrews, 5, 10, 11, 12, 16, 19, 32, 33, 34
Mr. Ballenger, 12, 13
Mr. Case, 14, 15, 16
Mr. Cole, 18, 19, 22, 23
Mr. Kline, 16, 30, 31
Mr. Payne, 23, 37, 38
Mr. Scandlen, 28, 30, 31, 33, 34, 38
Mr. Tierney, 19, 20, 21, 22, 34, 35, 36, 37
Ms. Burlage, 23, 30, 31, 32, 33, 35, 36, 37
Ms. Combs, 8, 9, 10, 11, 12, 14, 15, 16, 17, 18, 19, 20, 21, 22, 23
Ms. McCollum, 17, 18
Ms. Weiss, 27, 32, 34, 35



cxcvii

197


</pre></body></html>
